Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  PROGRESS IN ELECTRONIC
     HEALTH RECORD
 IMPLEMENTATION THROUGH
  HRSA GRANTS TO HEALTH
   CENTER CONTROLLED
        NETWORKS



                    Daniel R. Levinson
                     Inspector General

                      January 2014
                     OEI-09-11-00380
EXECUTIVE SUMMARY: PROGRESS IN ELECTRONIC HEALTH RECORD
IMPLEMENTATION THROUGH HRSA GRANTS TO HEALTH CENTER
CONTROLLED NETWORKS, OEI-09-11-00380

WHY WE DID THIS STUDY

One goal of the Health Resources and Services Administration (HRSA) is to ensure that all of its
health centers implement health information technology (HIT), including electronic health record
(EHR) systems. Since 2007, HRSA has awarded $176.9 million in grants to networks of health
centers known as health center controlled networks (HCCNs) to support this goal through the
acquisition, implementation, and “meaningful use” of EHR systems. To assess the grants’
contributions toward HRSA’s HIT goal, we assessed health centers’ progress in using HRSA
grants—funded by the American Recovery and Reinvestment Act (ARRA)—to implement EHR
systems that support meaningful use. HRSA did not require demonstration of meaningful use as
a condition of the grants, but has stated that Stage 1 meaningful use objectives, as set forth by the
Centers for Medicare & Medicaid Services, are a reasonable baseline to assess health center
progress in implementing EHR systems. We also did this study to determine whether health
centers face challenges related to the financial sustainability of their EHR systems.

HOW WE DID THIS STUDY

We surveyed health centers that participated in HRSA’s ARRA-funded HCCN grant projects
that supported EHR implementations and enhancements. Using survey responses, we
determined the extent to which health centers established the capability for the Stage 1
meaningful use objectives. We also determined whether health centers reported facing
challenges related to the financial sustainability of their EHR systems. To supplement the survey
responses, we reviewed grantee progress reports and conducted visits at 11 health centers.

WHAT WE FOUND

Most health centers established the capability for meaningful objectives related to capturing data.
However, fewer health centers established the capability for meaningful use objectives related to
sharing data. Establishing the capability for objectives relating to sharing data often requires
health centers to incur additional EHR-related costs. Although 76 percent of health centers
reported facing financial sustainability challenges, grantee progress reports contained limited
information related to the financial sustainability of EHR systems at health centers.

WHAT WE RECOMMEND

We recommend that HRSA (1) use data to understand progress towards meaningful use
objectives and to provide guidance and technical assistance to health centers, (2) ensure that
HCCN grantees provide information on the financial sustainability of EHR systems at health
centers, and (3) examine the feasibility of collecting information directly from health centers
regarding the financial sustainability of their EHR systems. HRSA concurred with all of our
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................9 

           Most health centers established the capability for meaningful 

           use objectives related to capturing data; fewer established the 

           capability for objectives related to sharing data ..............................9 

           Seventy-six percent of health centers reported facing
           financial sustainability challenges .................................................12 

           HCCNs’grantee progress reports contained limited information
           related to the financial sustainability of EHR systems at
           health centers .................................................................................14 

Conclusion and Recommendations ............................................................17 

Agency Comments and Office of Inspector General Response.................20 

Appendixes ................................................................................................21 

           A: Stage 1 Meaningful Use Objectives.........................................21 

           B: Stage 1 Meaningful Use Objectives and the Percentage

           of Health Centers With the Capability for Each Objective ............24 

           C: The Extent to Which Eligible Professionals at Health 

           Centers Demonstrate the Stage 1 Meaningful Use Objectives ......25 

           D: Agency Comments ...................................................................27 

Acknowledgments......................................................................................30 

                  OBJECTIVES
                  1.	 To assess health centers’ progress toward implementing electronic
                      health record (EHR) systems that support “meaningful use” through
                      Health Resources and Services Administration (HRSA) Health Center
                      Controlled Network (HCCN) grants funded by the American Recovery
                      and Reinvestment Act (ARRA).
                  2.	 To determine whether health centers face challenges related to the
                      financial sustainability of their EHR systems that were implemented or
                      enhanced with HRSA’s ARRA-funded HCCN grants.

                  BACKGROUND
                  Between 2007 and 2013, HRSA awarded $176.9 million in health
                  information technology (HIT) grants, with the majority of this amount
                  coming from ARRA.1 These grants support HRSA’s goal to ensure that all
                  of its health centers2 implement HIT, which includes the implementation
                  and meaningful use of EHR systems.3 EHR systems enable users to record
                  patient health information and medical history electronically instead of
                  using paper records. Professionals at health centers may become
                  “meaningful users” of EHR systems if they meet a set of meaningful use
                  objectives as defined in Federal regulations.4 These objectives encompass
                  capabilities that are meant to improve health care quality and efficiency by
                  electronically capturing and sharing data. Health centers must first
                  establish these capabilities so that professionals can become meaningful
                  users by using the capabilities.
                  HRSA HIT Grants
                  To support the implementation and meaningful use of EHR systems at
                  health centers, HRSA awarded its HIT grants to health center controlled
                  networks (HCCN). An HCCN is a group of health centers that use group
                  purchasing power and shared resources, infrastructure, and training to
                  adopt and implement HIT in a more cost-efficient manner.5 Although


                  1
                    HRSA awarded $35.3 million from 2007 through 2008; $120.5 million from 2009

                  through 2010 (with funds made available through ARRA § 3011, amending Titles XVIII 

                  and XIX of the Social Security Act); and $21.1 million in fiscal year 2013 (with funds 

                  made available through the Patient Protection and Affordable Care Act).

                  2
                    HRSA-funded health centers provide comprehensive primary care services to medically 

                  underserved communities and vulnerable populations. Public Health Service Act § 330

                  (codified at 42 U.S.C. § 254b). 

                  3
                    77 Fed. Reg. 72870 (Dec. 6, 2012). 

                  4
                    42 CFR § 495.6.

                  5
                    HRSA, Affordable Care Act—HCCNs, HRSA-13-327, June 19, 2012, pp. 1–2. 



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   1
                  HCCNs received the funding, the HIT grants supported projects for the
                  HCCNs’ member health centers.
                  EHR Implementation Grants. Between 2009 and 2010, HRSA awarded
                  $98.9 million in ARRA-funded grants to 43 HCCNs for EHR
                  implementation projects.6 (In this report, we refer to these grants as EHR
                  implementation grants.) A total of 260 health centers, varying in size and
                  location (i.e., rural or urban), participated in EHR implementation grant
                  projects through their respective HCCNs.7 Some of these health centers
                  were already using an EHR system prior to participating in grant projects.
                  The EHR implementation grants funded two types of projects to support
                  meaningful use at health centers: new EHR implementation projects
                  and—to expand the capabilities of existing EHR systems—EHR
                  enhancement projects.8 Some HCCNs received EHR implementation
                  grants to support both types of projects at one or more of their health
                  centers. For example, a health center participating in both types of
                  projects may have implemented an EHR system at one site and expanded
                  the capabilities of its EHR system at another site.
                  Financial Sustainability. Once an EHR system is implemented, there are
                  ongoing operational and maintenance costs related to financially
                  sustaining the system and implementing the capabilities to support
                  meaningful use. These ongoing costs can include hardware and software
                  license/maintenance agreements and upgrades, ongoing staff training, and
                  information technology (IT) support fees. In addition, hiring new staff—
                  such as IT operations staff, clinical data analysts, or application analysts—
                  can add to the ongoing costs.9 The estimated average yearly costs of an
                  EHR system range from $4,000 to $8,000 per professional, depending on
                  the type of EHR system.10


                  6
                    We did not include $21.6 million of the $120.5 million in grant funds made available
                  through ARRA because they were only for HIT innovation projects. 

                  7
                    The number of HRSA-funded health centers that participated in EHR implementation

                  grant projects is based on Office of Inspector General (OIG) verification with HCCN

                  grantees. 

                  8
                    Examples of enhancement projects include integrating with State-wide Health

                  Information Exchanges, expanding data reporting capabilities, implementing a patient

                  portal, and creating data registries. 

                  9
                    Office of the National Coordinator for Health Information Technology (ONC), How 

                  much is this going to cost me? Accessed at http://www.healthit.gov/providers-
                  professionals/faqs/how-much-going-cost-me on September 16, 2013.

                  10
                     Costs vary depending on whether centers select an onsite EHR system or Web-based 

                  EHR system. Web-based EHR systems typically require providers to pay a fixed 

                  monthly subscription cost. Onsite EHR systems typically require providers to pay for 

                  ongoing costs to support and manage onsite data servers. ONC, How much is this going 

                  to cost me? Accessed at http://www.healthit.gov/providers-professionals/faqs/how-
                  much-going-cost-me on September 16, 2013.



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   2
                  HRSA awarded the EHR implementation grants as one-time funding; the
                  grants were not intended to cover the ongoing maintenance and
                  operational costs. HRSA expects HCCNs and their participating health
                  centers to have a plan for how grant projects will be financially sustained
                  during and after the period of Federal grant funding (grant period),
                  particularly for ongoing maintenance and operational costs.11
                  Grantee Progress Reports. For EHR implementation grants, HRSA
                  required HCCN grantees to submit quarterly progress reports during the
                  grant period. During the September 2011 grant period, HRSA updated the
                  format of the grantee progress reports. The updated format includes (1) a
                  narrative section to collect information on any challenges—whether
                  related to financial sustainability or to other issues—experienced by
                  HCCNs and participating health centers to date and (2) another field to
                  collect sustainability plans. HRSA asked HCCNs to describe their
                  sustainability plans because it expects HCCNs and their participating
                  health centers to plan how grant projects will be sustained during and after
                  the grant period.
                  Meaningful Use of EHR Systems
                  HRSA awarded the EHR implementation grants in 2009 and 2010 with the
                  goal of implementing EHR systems to prepare health centers for
                  meaningful use, without any requirement to meet any specific meaningful
                  use objectives because such objectives had not yet been established.12
                  HRSA required that grant funds be used only to implement or enhance an
                  EHR system certified by an organization recognized by the Secretary of
                  Health and Human Services.13, 14 Such certification provides assurance that
                  the EHR system offers the necessary electronic capability to help health
                  center professionals become meaningful users (i.e., demonstrate
                  meaningful use objectives as defined in Federal regulations).15
                  CMS is defining and rolling out the meaningful use objectives in three
                  stages; each stage is adding increased capabilities to improve patient care,

                  11
                     HRSA, HIT Implementation for HCCNs, HRSA-10-154, December 9, 2009, p. 28.
                  12
                     HRSA announced the latest funding opportunity for the ARRA-funded EHR
                  implementation grants in December 2009, and applications were due in February 2010.
                  The Centers for Medicare & Medicaid Services (CMS) did not finalize the definitions
                  and requirements for Stage 1 meaningful use until July 2010. HRSA, HIT
                  Implementation for HCCNs, HRSA-10-154, December 9, 2009; 42 CFR § 495.6.
                  13
                     HRSA, HIT Implementation for HCCNs, HRSA-10-154, December 9, 2009, p. 6.
                  14
                     ONC issued the initial set of certification criteria on January 13, 2010, which
                  established the capabilities and related standards that certified EHR systems needed to
                  support the achievement of the proposed Stage 1 meaningful use rule. ONC defined
                  EHR certification requirements and the process for certification in Federal regulations.
                  45 CFR pt. 170, subparts C–E.
                  15
                     42 CFR § 495.6.


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)    3
                  enhance care coordination, and increase patient engagement. For each
                  meaningful use objective, CMS defines a specific measure that must be
                  met to demonstrate the objective. In July 2010, CMS defined the Stage 1
                  meaningful use objectives and their associated measures.16 These
                  objectives set the baseline for two types of capabilities:
                       	 capturing data (i.e., electronically capturing health information in a
                          structured format17 and using it for evidence-based clinical
                          decisions) and
                       	 sharing data (i.e., electronically sharing health information for care
                          coordination, patient engagement, and public health reporting).18
                  In September 2012, CMS defined the Stage 2 meaningful use objectives,
                  which expand on Stage 1 with a focus on sharing data for continued
                  quality improvement.19 Stage 2 meaningful use objectives became
                  effective on January 1, 2014 for professionals.20 CMS expects to define
                  Stage 3 meaningful use objectives related to improved health outcomes in
                  2016.21
                  Under the Medicaid EHR incentive program, a professional who is
                  eligible for the program (eligible professional)22 and demonstrates all
                  three stages of meaningful use can receive incentive payments totaling
                  $63,750 over 6 years.23 Eligible professionals who register for the
                  Medicaid EHR incentive program have until 2017 to demonstrate Stage 1
                  meaningful use to receive the maximum amount of incentive payments.



                  16
                     75 Fed. Reg. 44314 (July 28, 2010). 

                  17
                     “Structured data” is another way of referring to data that are entered into a specific 

                  field, as opposed to “free text” in a chart note. Structured data enable patient information

                  to be easily retrieved and transferred. CMS, Certified EHR Technology. Accessed at 

                  http://www.cms.gov/Regulations-and-Guidance/Legislation/EHRIncentivePrograms/

                  Certification.html on April 4, 2013. 

                  18
                     ONC, How to Implement EHRs — Step 5: Achieve Meaningful Use. Accessed at 

                  http://www.healthit.gov/providers-professionals/ehr-implementation-steps/step-5-
                  achieve-meaningful-use on September 16, 2013.

                  19
                     77 Fed. Reg. 53968, 53970 (Sept. 4, 2012). When CMS finalized Stage 2 meaningful

                  use objectives, it included minor changes to Stage 1 that take effect outside our period of 

                  review.

                  20
                     CMS, Stage2. Accessed at http://www.cms.gov/Regulations-and-Guidance/Legislation
                  /EHRIncentivePrograms/Stage_2.html on January 22, 2014. 

                  21
                     ONC, Meaningful Use Definition & Objectives. Accessed at 

                  http://www.healthit.gov/providers-professionals/meaningful-use-definition-objectives on

                  September 16, 2013.

                  22
                     42 CFR § 495.304(b). Eligible professionals include physicians, nurse practitioners, 

                  certified nurse midwives, dentists, and physician assistants who may participate in the 

                  Medicaid EHR incentive program.

                  23
                     42 CFR § 495.310.


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   4
                  Stage 1 Meaningful Use. After CMS finalized the Stage 1 meaningful use
                  objectives, HRSA stated that the Stage 1 mandatory objectives (“core
                  objectives”) are a reasonable baseline to assess health center progress on
                  implementing EHR systems.24 The Stage 1 meaningful use core objectives
                  include 15 objectives, of which 9 are related to capturing data and 5 are
                  related to sharing data.25 Stage 1 also includes 10 additional objectives
                  (“menu objectives”). An eligible professional who is participating in the
                  Medicaid EHR incentive program would need to demonstrate Stage 1
                  meaningful use by meeting the measures for all 15 of the core objectives
                  and 5 of the 10 menu objectives, 1 of which must be a public health
                  objective.26 Although a health center may have established the capability
                  for Stage 1 meaningful use, it is up to the individual eligible professional
                  to meet the measures for the objectives to receive incentive payments. See
                  Appendix A for a list of the core and menu objectives for Stage 1
                  meaningful use, along with the type of capability the objectives represent
                  (i.e., capturing data or sharing data) and their associated measures for
                  eligible professionals.

                  METHODOLOGY
                  Scope
                  In July 2012, we surveyed health centers that fell within the scope of our
                  study—namely, health centers that participated in EHR implementation
                  grant projects and that are funded by HRSA through section 330 of the
                  Public Health Services Act. These health centers are associated with the
                  55 EHR implementation grants that HRSA awarded to 43 HCCNs with
                  funds made available through ARRA. To supplement survey responses,
                  we reviewed grantee progress reports submitted to HRSA by HCCNs in
                  2011 and 2012 and we conducted site visits at a purposive sample of
                  11 health centers from May to September 2012.
                  To assess health centers’ progress toward implementing EHR systems that
                  support meaningful use, we examined the extent to which health centers
                  reported having the capability for Stage 1 meaningful use objectives,
                  which set the baseline for capturing and sharing data. We use the Stage 1

                  24
                     HRSA, UDS Reporting Instructions for Section 330 Grantees, January 2011, p. 114.
                  Accessed at http://bphc.hrsa.gov/healthcenterdatastatistics/reporting/2010manual.pdf on
                  August 25, 2011; HRSA, UDS Reporting Instructions for Section 330 Grantees,
                  December, 2012, p. 153. Accessed at http://www.bphcdata.net/docs/uds_rep_instr.pdf on
                  July 23, 2013.
                  25
                     42 CFR § 495.6. The core objectives also include one objective related to ensuring the
                  privacy of health information. 

                  26
                     Ibid. The public health objectives for eligible professionals include two objectives 

                  related to submitting data to public health agencies (immunization registries data and 

                  syndromic surveillance data). 



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   5
                  meaningful use objectives, as initially finalized by CMS, because HRSA
                  stated that this set of Stage 1 core objectives is a reasonable baseline to
                  assess health center progress in implementing EHR systems.
                  We also determined whether health centers had reported facing challenges
                  related to the financial sustainability of their EHR systems.
                  Data Collection and Analysis
                  Health Center Survey. We administered a survey to health centers to
                  collect information on their progress toward implementing EHR systems
                  that support meaningful use and any issues related to the financial
                  sustainability of their EHR systems. To identify our survey population, we
                  obtained from HRSA a list of HCCNs that received an EHR
                  implementation grant(s) and these HCCNs’ section 330-funded health
                  centers that participated in EHR implementation grant projects. However,
                  HRSA could not confirm that the list was complete, as participating health
                  centers may leave or join HCCNs. Therefore, we contacted all 43 HCCNs
                  on HRSA’s list and asked them to verify their respective lists of health
                  centers that were participating in grant projects. We also asked the
                  HCCNs to provide names and contact information for any participating
                  health centers that were not included on these lists.
                  As a result, we compiled a list of 260 section 330-funded health centers
                  participating in EHR implementation grant projects. We pretested the
                  survey with six of these health centers and excluded them from the survey
                  population. We administered the survey to the remaining 254 health
                  centers. We received 246 responses, a 97-percent response rate. We
                  excluded 13 health centers that reported they had not yet implemented an
                  EHR system, because our survey questions focused on issues that are
                  relevant only for health centers that have already implemented an EHR
                  system.27 Therefore, our findings are based on 233 health centers.
                  For the health centers that reported using an EHR system, we analyzed
                  their survey responses to examine their progress toward implementing
                  EHR systems that support meaningful use. For each Stage 1 meaningful
                  use objective, the survey asked whether “all,” “most,” “some,” “few,” or
                  “none” of the health center’s eligible professionals met the measure for the
                  objective for the preceding 90 days.28 If the health center reported that all,
                  most, some, or few of its eligible professionals met the measure, we
                  concluded that the health center had established the capability for the

                  27
                     These health centers had purchased an EHR system but had not yet implemented it at
                  the time of our review. 

                  28
                     42 CFR § 495.4. We used a 90-day reporting period because the Medicaid EHR

                  incentive program uses a 90-day reporting period for the first year in which the eligible 

                  professional is demonstrating meaningful use.



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   6
                  objective. If the health center reported that none of its eligible
                  professionals met the measure, we concluded that the health center had not
                  established the capability for the objective. We asked health centers that
                  did not establish the capability for the objective when they expected to
                  establish it. If we concluded that a health center had established the
                  capability for 15 core objectives and 5 menu objectives (including 1 of the
                  public health menu objectives), we concluded that the health center had
                  established the capability for all the objectives necessary for Stage 1
                  meaningful use. Finally, we analyzed survey responses to determine the
                  extent to which eligible professionals at health centers are registered for
                  the Medicaid EHR incentive program.
                  We analyzed survey responses from the health centers that reported using
                  an EHR system to determine whether they reported facing challenges
                  related to the financial sustainability of their EHR systems. For those
                  health centers that reported facing such sustainability challenges, we
                  analyzed open-ended survey responses to describe their challenges and
                  their efforts to offset the ongoing costs of operating and maintaining the
                  systems.
                  Grantee Progress Reports. We obtained from HRSA all grantee progress
                  reports submitted by HCCNs as of August 2012. We reviewed two fields
                  in the narrative section of the most recent progress reports: challenges and
                  sustainability plans. We reviewed the challenges to determine whether
                  HCCNs reported to HRSA that their health centers were facing financial
                  sustainability challenges during the grant period and whether these
                  challenges, if any, were similar to those reported by health centers through
                  our survey. We reviewed HCCN’s sustainability plans to determine
                  whether the plans addressed the challenges that health centers reported
                  facing related to the sustainability of their EHR systems.
                  Health Center Site Visits. We visited a purposive sample of 11 health
                  centers chosen on the basis of their location and size. We visited health
                  centers in California, Delaware, Illinois, Maryland, Oregon, and Utah that
                  varied in size (3,000 to 70,000 patient encounters per year), location
                  (urban/rural), and duration of EHR system use. At each health center, we
                  conducted structured onsite interviews with staff members (e.g., eligible
                  professionals, the medical director, and executive management) who
                  perform key roles in the health center’s EHR implementation and progress
                  toward meaningful use. We asked the staff about their experiences in
                  implementing the EHR system, including challenges they faced, and about
                  the strategies they used to establish the capability for Stage 1 meaningful
                  use objectives and to financially sustain the EHR system. Staff from five
                  health centers completed our survey prior to our onsite visits. We asked
                  these staff to elaborate on select responses from their survey. We analyzed


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   7
                  the information from health center staff interviews for additional or
                  supporting information on health centers’ progress toward implementing
                  EHR systems that support meaningful use and challenges related to
                  sustaining their EHR system.
                  Limitations
                  This study relies on self-reported data from health center respondents. We
                  did not request documentation to verify their responses.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   8
                  FINDINGS
                  Most health centers established the capability for
                  meaningful use objectives related to capturing data;
                  fewer established the capability for objectives related
                  to sharing data
                  Although the grants that HRSA awarded to HCCNs did not require
                  participating health centers to demonstrate Stage 1 meaningful use, the
                  health centers have made significant progress toward establishing the
                  capability for objectives related to capturing data. However, they have not
                  made commensurate progress with regard to the objectives related to
                  sharing data, thus hindering their progress toward implementing EHR
                  systems that support meaningful use. Seventy-two percent (168 of 233) of
                  health centers had established the capability for all the core objectives
                  related to capturing data.29 In contrast, only 24 percent (56 of 233) of
                  health centers had done so for all the core objectives related to sharing
                  data.30 Although most of the health centers (192 of 233) had established
                  the capability for at least 5 menu objectives, only 36 percent (83 of 233)
                  had done so for 1 of 2 public health menu objectives related to sharing
                  data. Overall, 14 percent (32 of 233) of health centers had established the
                  capability for all of the objectives necessary for Stage 1 meaningful use,
                  i.e., all 15 of the core objectives plus 5 of the 10 menu objectives.
                  Although only a small percentage of health centers had established the
                  capability for all the objectives necessary for Stage 1 meaningful use,
                  more than half of health centers had established the capability for each
                  individual objective, with the exception of four objectives—one core,
                  three menu—related to sharing data. (See Appendix B for an ordered list
                  of the Stage 1 meaningful use objectives by the percentage of health
                  centers with the capability for each objective.)
                  Although only 14 percent of health centers had established the capability
                  for all the objectives necessary for Stage 1 meaningful use, at the time of
                  our review, an additional 27 percent (62 of 233) of health centers reported
                  that they would establish the capability for Stage 1 by mid-2013.
                  Furthermore, almost all health centers (221 of 233) reported that they
                  expected all of their eligible professionals to register for the Medicaid
                  EHR incentive program to demonstrate Stage 1 meaningful use and

                  29
                     Core objectives related to capturing data include vital signs, active medication,
                  medication allergy lists, demographics, drug interaction checks, problem lists, smoking
                  status, computerized provider order entry, and clinical decision support.
                  30
                     Core objectives related to sharing data include electronic prescribing, clinical
                  summaries, clinical quality objectives, electronic copy of health information, and
                  electronic exchange of clinical information.


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   9
                  receive incentive payments. Eligible professionals who register for the
                  Medicaid EHR incentive program have until 2017 to demonstrate Stage 1
                  meaningful use to receive the maximum amount of incentive payments.
                  Therefore, participation in the Medicaid EHR incentive program indicates
                  that the majority of health centers plan to establish the capability to enable
                  all of their eligible professionals to demonstrate Stage 1 meaningful use by
                  2017 or earlier.
                  Establishing the capability for objectives related to sharing
                  data often requires health centers to incur additional
                  EHR-related costs
                  Establishing the capability for objectives related to sharing data may be
                  challenging for health centers because these objectives can require health
                  centers to incur additional EHR-related costs. Health centers reported that
                  they have to purchase separate applications or pay separate fees for
                  specific software capabilities for objectives related to sharing data with
                  other providers of care,31 public health agencies, and patients. Health
                  centers reported that such costs can be unanticipated because they
                  expected their certified EHR systems to include all the capabilities
                  necessary to demonstrate meaningful use.
                  Establishing the Capability To Share Data With Other Providers of Care
                  and Public Health Agencies May Create Financial Challenges. On
                  average, only 27 percent (63 of 233) of health centers had established the
                  capability for the 3 objectives related to sharing data with other providers
                  of care and public health agencies. Establishing this capability may
                  require health centers to purchase additional technology to establish an
                  interface (i.e., a data connection to an external system). In their surveys,
                  health centers provided supplementary information about the financial
                  challenges associated with establishing interfaces. For example, one
                  health center reported that every different connection with outside entities
                  “requires the purchase of a very expensive interface [along with] the cost
                  of IT support and training.” Another health center reported that its health




                  31
                    For the purposes of this report, “provider of care” is a general term that includes not
                  only professionals, but also hospitals and other patient-authorized entities (i.e., any
                  individual or organization to which the patient has granted access to his or her clinical
                  information).


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)     10
                  information exchange32 interface will cost $39 per professional per month,
                  which will create an additional expense in excess of $10,000 per year.
                  Additionally, health centers reported that establishing interfaces to share
                  information can also be challenging because such sharing is dependent on
                  the readiness of other entities. Even if the health center is prepared to
                  send information electronically, some organizations—such as
                  immunization registries and State health departments—may not have the
                  ability to receive the electronic data.
                  Establishing the Capability To Share Data With Patients May Create
                  Financial Challenges. Only 29 percent (68 of 233) of health centers had
                  established the capability for the objective related to providing patients
                  with electronic access to their health information. A common way to
                  establish this capability is to implement a patient portal, which is an online
                  application that can enable patients to access their health records and
                  allow them to interact and communicate with their professionals.
                  However, patient portals may be costly for health centers to implement
                  and financially sustain. During our site visit to one health center, staff
                  reported that the center’s patient portal technology cost $80,000. Another
                  health center reported that its vendor charges it $49 per month per
                  professional, which increases its annual expenses by $15,000 per year. A
                  third health center reported that its vendor charges it $150 per month per
                  professional. This objective was optional for Stage 1 meaningful use, but
                  it will be required for Stage 2 along with additional objectives that can be
                  met through the use of a patient portal.33




                  32
                     The term “health information exchange,” or HIE, refers to the process of sharing
                  health-related information among organizations according to nationally recognized
                  standards. The term is often used interchangeably to refer both to a process and an entity,
                  with many organizations referring to themselves as HIEs. Search HealthIT, Briefing:
                  What is Health Information Exchange? Accessed at
                  http://searchhealthit.techtarget.com/tutorial/FAQ-What-is-health-information-
                  exchange#HIEstandards on January 29, 2013. Health information exchanges are
                  different from health insurance exchanges, which are entities that are meant to create a
                  more organized and competitive market for health insurance. Kaiser Family Foundation,
                  Explaining Health Care Reform: Questions About Health Insurance Exchanges,
                  April 2010. Accessed online at
                  http://kaiserfamilyfoundation.files.wordpress.com/2013/01/7908-02.pdf on July 11, 2013.
                  33
                     Stage 2 Core Objective 12 (send reminders for preventive care) and Core Objective 17
                  (use secure electronic messaging) can be met through the use of a patient portal.
                  77 Fed. Reg. 54031 (Sept. 4, 2012). ONC, How to Implement EHRs — Step 5: Achieve
                  Meaningful Use, Patient Reminders. Accessed at http://www.healthit.gov/providers-
                  professionals/achieve-meaningful-use/menu-objectives/patient-reminders on July 11,
                  2013.


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   11
                  The extent to which eligible professionals met the Stage 1
                  meaningful use objectives related to capturing and sharing
                  data varied
                  We concluded that a health center had established the capability for a
                  meaningful use objective if the health center reported that “all,” “most,”
                  “some,” or “few” of its eligible professionals met the objective. Although
                  a health center may have established the capability for an objective, the
                  extent to which its eligible professionals actually met the objective varied
                  from a “few” to “all” eligible professionals. This variation may indicate
                  how difficult it is for eligible professionals to meet an objective once the
                  health center has established the capability. For example, although
                  93 percent (216 of 233) of health centers established the capturing-data
                  capability related to recording the smoking status for all patients 13 years
                  old or older, only 37 percent (86 of 233) of health centers reported that all
                  of their eligible professionals met that objective. Health centers reported
                  that this objective is difficult for their eligible professionals to meet for a
                  variety of reasons, including difficulties in capturing the data in a
                  structured format and resistance to requesting the information from
                  patients as young as 13. Furthermore, some eligible professionals, such as
                  dentists, do not normally request this information from patients.
                  Although 82 percent (191 of 233) of health centers had established the
                  sharing-data capability related to providing clinical summaries to patients
                  following a visit, only 21 percent (50 of 233) of health centers reported
                  that all of their eligible professionals met that objective. Health centers
                  reported that this objective is difficult for their eligible professionals to
                  meet, because it is challenging to accurately record the health information
                  in a meaningful way. Specifically, sometimes it is challenging for eligible
                  professionals to accurately record health information in plain language
                  and—for patients whose native language is not English—to provide it in a
                  clinical summary in the patient’s native language. Other health centers
                  reported that this objective is difficult because of the logistics of having to
                  print the summary before the patient leaves the health center. (See
                  Appendix C for a breakdown of the Stage 1 meaningful use objectives by
                  the extent to which eligible professionals at health centers met them.)
                  Seventy-six percent of health centers reported facing
                  financial sustainability challenges
                  Seventy-six percent (177 of 233) of health centers reported that they face,
                  or anticipate facing, challenges related to the financial sustainability of
                  their EHR systems. Health centers reported facing such challenges largely
                  as a result of increased costs and loss of productivity and despite their
                  efforts to offset the costs of sustaining an EHR system. Health centers’


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   12
                  use of EHR systems and ability to provide services may be negatively
                  impacted when the centers face financial sustainability challenges that
                  they are unable to overcome.
                  Health centers face financial sustainability challenges because
                  of increased costs and loss of productivity associated with
                  their EHR systems
                  The health centers that reported facing financial sustainability challenges
                  commonly reported challenges related to increased costs and a loss of
                  productivity associated with the EHR system. Of the health centers that
                  reported facing such challenges, 66 percent (116 of 177) cited increased
                  costs and 25 percent (45 of 177) cited a loss of productivity. Health
                  centers generally reported facing more than one type of sustainability
                  challenge at the same time.
                  The Increased Costs Associated With Operating and Maintaining an EHR
                  System Can Be Challenging for Health Centers. Of the health centers that
                  reported facing financial sustainability challenges, almost a third cited
                  challenges related to the costs of operating an EHR system. These
                  operational costs include ongoing staff training costs, IT support fees,
                  interface costs, software licensing fees, and telecommunications fees. At
                  the same time, approximately a quarter of health centers cited challenges
                  related to the costs of maintaining the EHR system. These maintenance
                  costs include hardware and software maintenance agreements and
                  upgrades. Other health centers cited EHR-related costs in general that
                  could not be categorized as operational or maintenance costs specifically.
                  A Loss of Productivity—Or a Decline in the Number of Patient Visits—
                  Can Be Associated With Lower Reimbursement From Payers and
                  Decreased Revenue. Thirty-six health centers reported that loss of
                  productivity was one of the most costly aspects of EHR implementation.
                  These health centers reported a range of lost revenues that were due to a
                  loss of productivity. For example, one health center reported that the loss
                  of productivity has resulted in $900,000 in lost revenues per year, whereas
                  another health center estimated its loss at $15,000.
                  A persistent loss of productivity following EHR implementation may
                  occur as a result of usability issues with the EHR system. When a health
                  centers’ EHR system is difficult for professionals to use, they may not be
                  able to see as many patients as they were able to see prior to EHR
                  implementation. For example, on one of our site visits to a health center,
                  professionals explained that it takes longer for them to navigate through
                  the EHR and check all the appropriate boxes than it took for them to fill
                  out the paper record. Furthermore, professionals explained that the EHR
                  system and the meaningful use objectives place a larger documentation


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   13
                  burden on them than on other staff. The 45 health centers that reported
                  facing sustainability challenges that are due to a loss of productivity
                  implemented their EHR system almost 2 years prior to our review, on
                  average. Eight of these health centers implemented their EHR system
                  more than 3 years prior to our review.
                  Health centers face financial sustainability challenges despite
                  efforts to offset the costs of sustaining an EHR system
                  The health centers that reported facing financial sustainability challenges
                  also reported that they are trying to offset the costs of sustaining their
                  EHR systems. Their efforts to offset costs included identifying additional
                  sources of funding (e.g., external funding opportunities and Medicaid
                  EHR incentive payments), increasing efficiencies with their respective
                  EHR systems (e.g., enhancing collections of billable claims and
                  optimizing billing), and increasing productivity through training and
                  optimizing EHR systems to enable professionals to navigate them more
                  quickly.
                  Health centers’ use of their EHR systems and their ability to provide
                  services could be negatively impacted if the centers are not able to
                  overcome financial sustainability challenges. Health centers provided
                  supplementary information on their surveys about the difficult decisions
                  they have had to make to address sustainability challenges. Centers stated
                  that because of the high costs of operating and maintaining EHR systems,
                  they have had to delay purchasing and implementing interfaces, patient
                  portals, and other capabilities. Other health centers reported that their
                  sustainability challenges affect their ability to provide services to patients.
                  One health center stated that “reduced productivity compounded with
                  extra [EHR-related] costs have caused the health center to be operating at
                  a loss and [we are] faced with cutting positions to continue providing the
                  same level of services to our patients.” Some health centers reported that
                  their only option has been to charge patients more for services. Other
                  health centers reported that staff dissatisfaction with the EHR system has
                  led some experienced professionals to quit.

                  HCCNs’ grantee progress reports contained limited
                  information related to the financial sustainability of
                  EHR systems at health centers
                  HCCNs, not health centers, wrote and submitted quarterly grantee
                  progress reports to HRSA during the grant periods. We found that as a
                  result, the narratives in the grantee progress reports were generally written
                  from the HCCN perspective and contained limited information about the
                  financial sustainability of EHR systems at their health centers.



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   14
                  First, some of the financial sustainability challenges reported by health
                  centers were not reflected in the grantee progress reports. Second, most
                  grantee progress reports did not include the HCCNs’ plans to sustain EHR
                  systems at health centers beyond the grant period. As a result of these
                  limitations, HRSA may lack information on the challenges that health
                  centers are facing and on how HCCNs are supporting their health centers’
                  efforts to financially sustain their EHR systems.
                  Financial sustainability challenges reported by health centers
                  were generally not reflected in HCCNs’ grantee progress
                  reports
                  HRSA requested information related to challenges experienced during the
                  grant period to date, but it did not specify whether these challenges should
                  be those experienced by the HCCN or those experienced by the health
                  center. The grantee progress reports that we examined generally did not
                  mention challenges specific to health centers’ ability to sustain their EHR
                  systems. As a result, financial sustainability challenges reported by health
                  centers through our survey were generally not reflected in the grantee
                  progress reports that HCCNs submitted to HRSA. For example, in
                  response to our survey, 45 health centers associated with 25 different
                  HCCNs reported loss of productivity as a sustainability challenge.
                  However, only 4 of those 25 HCCNs reported their health centers’ loss of
                  productivity as a challenge in their grantee progress reports. Furthermore,
                  for five HCCNs, the field for “challenges” in the grantee progress reports
                  was left blank in at least one of the two most recent submissions. When
                  HCCNs’ grantee progress reports do not mention the sustainability
                  challenges that their health centers are facing, HRSA may not be aware of
                  the extent of these challenges.
                  Most sustainability plans did not include plans to sustain EHR
                  systems at health centers
                  HRSA requested that in their grantee progress reports, HCCNs describe
                  their respective sustainability plans, including a brief description of their
                  plans to sustain the grant projects beyond the grant period. However,
                  three HCCNs did not include such plans in their most recent grantee
                  progress reports. Furthermore, the majority of the sustainability plans in
                  progress reports did not include information specific to the HCCNs’ plans
                  to sustain EHR systems at the health-center level beyond the grant period.
                  Instead, the majority of the sustainability plans that were submitted in
                  grantee progress reports included information related to how the HCCNs




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   15
                  planned to sustain their own operations (26 of 38).34 These plans included
                  strategies such as charging membership fees, leveraging funding from HIT
                  regional extension centers,35 expanding HCCN membership, and relying
                  on external funding opportunities.
                  When sustainability plans have limited information at the health-center
                  level, HRSA may lack information on how HCCNs help or hinder health
                  centers’ efforts to financially sustain their EHR systems. For example, the
                  majority of sustainability plans that focused only on HCCNs included
                  strategies related to relying on resource commitments (e.g., membership
                  fees) from their current health center members for sustaining HCCN
                  operations (18 of 26). Most HCCNs require such resource commitments
                  from their member health centers, but the grantee progress reports
                  generally do not include any information on the affordability of these
                  resource commitments and how they affect health centers’ budgets. For
                  example, one health center reported that the fees its HCCN charged were
                  not “fairly divided among health centers.” (In this case, the HCCN
                  charged the same fee for each health center, rather than weighting it by
                  each center’s number of professionals).




                  34
                     In addition to the three HCCNs that did not include sustainability plans in their most
                  recent grantee progress reports, two HCCNs were reporting in the older format wherein
                  HRSA did not request a sustainability plan. There were 43 HCCN grantees. Therefore,
                  we analyzed 38 sustainability plans.
                  35
                     Section 3012(a) of the Public Health Service Act created the HIT extension program
                  that provides grants to establish HIT regional extension centers to provide technical
                  assistance and guidance to all professionals.


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)     16
                  CONCLUSION AND RECOMMENDATIONS
                  To improve coordination of care and to implement new models of service
                  delivery and payment, it is critical that EHR systems be able not just to
                  capture data, but also to share data.36 Although most health centers that
                  participated in EHR implementation grant projects through their respective
                  HCCNs established the capability for meaningful use objectives related to
                  capturing data, fewer established the capability for objectives related to
                  sharing data. Establishing capabilities for objectives related to sharing
                  data is a challenge that is not unique to health centers. Recent research
                  indicates that there are substantial barriers to the widespread sharing of
                  health information across all practice settings.37
                  Although HRSA’s EHR implementation grants were not intended to cover
                  the ongoing costs of operating and maintaining EHR systems, HRSA
                  expects HCCNs and health centers to have sustainability plans to cover
                  these costs. However, 76 percent of health centers using EHR systems
                  reported facing challenges related to their financial sustainability.
                  Additional costs incurred by health centers as they establish the capability
                  to share data can contribute to financial sustainability challenges. Health
                  centers’ use of their EHR systems and their ability to provide services may
                  be negatively impacted if health centers are not able to overcome such
                  challenges.
                  HRSA may not have complete information regarding financial
                  sustainability at health centers because grantee progress reports submitted
                  by HCCNs provided limited information. These progress reports do not
                  give HRSA enough information to determine whether health centers are
                  able to financially sustain HRSA’s investment in EHR systems over the
                  long term in the absence of future Federal grant opportunities, incentive
                  payments, and new payment models under the Affordable Care Act.




                  36
                    78 Fed. Reg. 14793 (March 7, 2013). 

                  37
                    Michael F. Furukawa, et al., “Hospital Electronic Health Information Exchange Grew 

                  Substantially In 2008–12,” Health Affairs 32 (8), August 2013. 



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   17
                  To address these issues, we recommend that HRSA:
                  Use data to understand progress towards meaningful use
                  objectives and to provide guidance and technical assistance
                  to health centers
                  HRSA is updating its progress-reporting process for grantees to reflect its
                  most recent fiscal year 2013 funding opportunity, which will require
                  HCCNs to report on their participating health centers’ attainment of
                  meaningful use objectives as well as emerging needs and challenges
                  encountered related to meaningful use.38 HRSA also collects similar
                  meaningful use information from all health centers reporting to HRSA’s
                  Uniform Data System, its annual reporting tool for health centers. Moving
                  forward, HRSA should use this information to determine what types of
                  assistance—technical or financial—health centers need to implement the
                  capabilities related to sharing data.
                  Ensure that HCCN grantees provide information on the
                  financial sustainability of EHR systems at health centers
                  The goal of HRSA’s HIT-related grants is to serve the interests of health
                  centers through HCCNs. We found that most grantee progress reports did
                  not contain information on financial sustainability of EHR systems at
                  health centers. As part of its ongoing monitoring of HCCN grantees,
                  HRSA could gather information from HCCNs about the financial impact
                  of implementation on participating health centers, including information
                  on health centers’ current and anticipated challenges. HRSA could also
                  gather information from HCCNs about the specific actions they are taking
                  to assist health centers’ efforts to financially sustain their EHR systems.
                  Examine the feasibility of collecting information directly from
                  health centers regarding the financial sustainability of their
                  EHR systems
                  Grantee progress reports are submitted only by current HCCN grantees.
                  To determine whether health centers are able to financially sustain HRSA’s
                  investment in EHR systems over the long term, HRSA should consider the
                  feasibility of gathering information directly from all health centers
                  regarding the financial sustainability of their EHR systems. Specifically,
                  HRSA could do so by using existing tools—such as its Uniform Data
                  System—for monitoring health centers. This would enable HRSA to
                  annually collect sustainability information on all of its health centers, as
                  opposed to only those currently participating in HRSA HIT-related grant
                  projects.


                  38
                       77 Fed. Reg. 72870 (Dec. 6, 2012).


Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   18
                  This information would be helpful for HRSA as it plans for future funding
                  opportunities. HRSA could also use this information to provide guidance
                  and technical assistance to health centers to help them financially sustain
                  their EHR systems. For example, HRSA could use the information to
                  identify promising practices and to reach out to health centers that report
                  facing financial sustainability challenges.




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   19
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  HRSA concurred with all of our recommendations.
                  To address our recommendation that HRSA use data to understand
                  progress towards meaningful use objectives and to provide guidance and
                  technical assistance to health centers, HRSA stated it will continue to
                  analyze information from health center UDS reports and HCCN progress
                  reports on meaningful use attainment. HRSA will use this information to
                  inform future HIT technical assistance and training webinars.
                  To address our recommendation that HRSA ensure HCCN grantees
                  provide information on the financial sustainability of EHR systems at
                  health centers, HRSA commented that it has increased its focus on
                  sustaining EHR systems as part of its recent funding opportunity
                  announcements.
                  To address our final recommendation that HRSA examine the feasibility of
                  collecting information directly from health centers regarding the financial
                  sustainability of their EHR systems, HRSA stated that it will update its
                  Site Visit Protocol to ensure a portion of the visit focuses on financial
                  sustainability, addresses health center concerns, and provides targeted
                  guidance. HRSA commented that it uses information submitted by health
                  centers in the annual UDS reports and required independent audits to
                  monitor financial sustainability of health centers.
                  For a full text of HRSA’s comments, see Appendix D.




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   20
                  APPENDIX A

                  Stage 1 Meaningful Use Objectives
                    Core objectives
                    Objective                       Type of Capability       Measure
                                                                             More than 30 percent of all
                      1.   Use computerized                                  unique patients with at least one
                           provider order entry        Capturing data        medication in their medication
                           (CPOE)                                            list have at least one medication
                                                                             order entered using CPOE.
                                                                             The eligible professional (EP)
                      2.   Implement drug                                    enables drug-drug and
                                                       Capturing data
                           interaction checks                                drug-allergy check functionality
                                                                             for the entire reporting period.
                                                                             More than 80 percent of all
                                                                             unique patients have at least one
                      3.   Maintain problem                                  entry (or an indication that no
                                                       Capturing data
                           lists                                             problems are known for the
                                                                             patient) recorded as structured
                                                                             data.
                                                                             More than 40 percent of all
                                                                             permissible prescriptions written
                      4.   Use electronic
                                                        Sharing data         by the EP are transmitted
                           prescribing
                                                                             electronically using certified
                                                                             EHR systems.
                                                                             More than 80 percent of all
                                                                             unique patients have at least one
                      5.   Maintain active                                   entry (or an indication that the
                                                       Capturing data
                           medication lists                                  patient is not currently
                                                                             prescribed any medication)
                                                                             recorded as structured data.
                                                                             More than 80 percent of all
                                                                             unique patients have at least one
                      6.   Maintain medication                               entry (or an indication that the
                                                       Capturing data
                           allergy lists                                     patient has no known medication
                                                                             allergies) recorded as structured
                                                                             data.
                                                                             More than 50 percent of all
                      7.   Record                                            unique patients have
                                                       Capturing data
                           demographics                                      demographics recorded as
                                                                             structured data.
                                                                             More than 50 percent of all
                                                                             unique patients age 2 and over
                      8.   Record vital signs          Capturing data        have height, weight, and blood
                                                                             pressure recorded as structured
                                                                             data.
                                                                             More than 50 percent of all
                      9.   Record smoking                                    unique patients 13 years old or
                                                       Capturing data
                           status                                            older have smoking status
                                                                             recorded as structured data.
                                                                                          continued on next page




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)     21
                  Stage 1 Meaningful Use Objectives
                    Core objectives (continued)
                    Objective                   Type of Capability        Measure

                      10. Report clinical                                 The EP successfully reports
                          quality measures           Sharing data         ambulatory CQMs selected by CMS
                          (CQMs)                                          in the manner specified by CMS.
                      11. Implement
                                                                          The EP implements one clinical
                          clinical decision         Capturing data
                                                                          decision support rule.
                          support rule
                      12. Provide                                         More than 50 percent of all patients
                          electronic copy                                 who request electronic copies of their
                                                     Sharing data
                          of health                                       health information are provided with
                          information                                     copies within 3 business days.
                                                                          For more than 50 percent of all office
                      13. Provide clinical
                                                     Sharing data         visits, clinical summaries are provided
                          summaries
                                                                          to patients within 3 business days.
                      14. Exchange                                        The EP performs at least one test of
                          clinical                                        the certified EHR system’s capacity to
                                                     Sharing data
                          information                                     electronically exchange key clinical
                          electronically                                  information.
                                                                          The EP conducts or reviews a security
                                                                          risk analysis in accordance with the
                                                                          requirements under
                      15. Protect
                                                                          45 CFR 164.308(a)(1). The EP
                          electronic health       Ensuring privacy
                                                                          implements security updates as
                          information
                                                                          necessary and corrects identified
                                                                          security deficiencies as part of the
                                                                          risk-management process.
                    Menu objectives
                    Objective                   Type of Capability        Measure
                                                                          The EP enables the functionality to
                                                                          check drug formularies and has access
                      1.   Implement drug
                                                    Capturing data        to at least one internal or external
                           formulary checks
                                                                          formulary for the entire EHR
                                                                          reporting period.
                                                                          More than 40 percent of all clinical
                                                                          lab test results ordered by the EP
                      2.   Incorporate                                    during the EHR reporting period
                           clinical lab test        Capturing data        whose results are either in a
                           results                                        positive/negative or numerical format
                                                                          are incorporated in certified EHR
                                                                          system as structured data.
                                                                          The EP generates at least one report
                      3.   Generate patient
                                                    Capturing data        listing patients with a specific
                           lists
                                                                          condition.
                                                                          More than 20 percent of all patients 65
                                                                          years old or older or 5 years old or
                      4.   Send patient
                                                     Sharing data         younger were sent an appropriate
                           reminders
                                                                          reminder during the EHR reporting
                                                                          period.
                                                                                          continued on next page



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)     22
                  Stage 1 Meaningful Use Objectives
                    Menu objectives (continued)
                    Objective                       Type of Capability         Measure
                                                                               At least 10 percent of all unique
                                                                               patients are provided timely
                                                                               (available to the patient within
                                                                               4 business days of being updated
                      5.   Provide patients with
                                                         Sharing data          in the certified EHR system)
                           electronic access
                                                                               electronic access to their health
                                                                               information subject to the EP’s
                                                                               discretion to withhold certain
                                                                               information.
                                                                               More than 10 percent of all
                      6.   Provide patient-
                                                                               unique patients are provided
                           specific education            Sharing data
                                                                               patient-specific education
                           resources
                                                                               resources.
                                                                               The EP performs medication
                      7.   Perform medication
                                                        Capturing data         reconciliation for more than
                           reconciliation
                                                                               50 percent of transitions of care.
                                                                               The EP who transitions or refers a
                                                                               patient to another setting of care
                      8.   Provide transition of                               or provider of care provides a
                                                         Sharing data
                           care summaries                                      “summary of care” record for
                                                                               more than 50 percent of
                                                                               transitions of care and referrals.
                                                                               The EP performs at least one test
                                                                               of the certified EHR system’s
                      9.   Submit electronic
                                                                               capacity to submit electronic data
                           data to immunization          Sharing data
                                                                               to immunization registries and a
                           registries
                                                                               followup submission if the test is
                                                                               successful.
                                                                               The EP performs at least one test
                                                                               of the certified EHR system’s
                                                                               capacity to provide electronic
                                                                               syndromic surveillance data to
                      10. Submit electronic                                    public health agencies and a
                          syndromic                      Sharing data          followup submission if the test is
                          surveillance data                                    successful (unless none of the
                                                                               public health agencies to which
                                                                               an EP submits such information
                                                                               has the capacity to receive the
                                                                               information electronically).
                  Source: OIG analysis of Federal regulations (42 CFR § 495.6), 2013.




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)     23
                  APPENDIX B

                  Stage 1 Meaningful Use Objectives and the Percentage of
                  Health Centers With the Capability for Each Objective

                                                                    Percentage
                                                                                           Type of         Core or Menu
                    Objective                                      with Capability
                                                                                          Capability        Objective
                                                                       (N=233)

                    Record vital signs                                   96%            Capturing data          Core
                    Maintain active medication lists                     95%            Capturing data          Core
                    Maintain medication allergy lists                    95%            Capturing data          Core
                    Record demographics                                  95%            Capturing data          Core
                    Implement drug interaction checks                    93%            Capturing data          Core
                    Maintain problem lists                               94%            Capturing data          Core
                    Record smoking status                                93%            Capturing data          Core
                    Use computerized provider order entry                92%            Capturing data          Core
                    Use electronic prescribing                           91%             Sharing data           Core
                    Generate patient lists                               90%            Capturing data          Menu
                    Provide patient-specific education
                                                                         87%             Sharing data           Menu
                    resources
                    Incorporate clinical lab test results                85%            Capturing data          Menu
                    Provide clinical summaries                           82%             Sharing data           Core
                    Perform medication reconciliation                    78%            Capturing data          Menu
                    Implement clinical decision support rule             77%            Capturing data          Core
                    Provide transition of care summaries                 74%             Sharing data           Menu
                    Implement drug formulary checks                      73%            Capturing data          Menu
                                                                                           Ensuring
                    Protect electronic health information                66%                                    Core
                                                                                           privacy
                    Send patient reminders                               67%             Sharing data           Menu
                    Report clinical quality measures                     60%             Sharing data           Core
                    Provide electronic copy of health
                                                                         58%             Sharing data           Core
                    information
                                                                        <50%
                    Exchange clinical information
                                                                         37%             Sharing data           Core
                    electronically
                    Submit electronic data to immunization
                                                                         33%             Sharing data          Menu*
                    registries
                    Provide patients with electronic access              29%             Sharing data           Menu
                    Submit electronic syndromic
                                                                         10%             Sharing data          Menu*
                    surveillance data
                  *One of the two public health menu objectives is necessary to demonstrate Stage 1 meaningful use.
                  Source: OIG analysis of survey responses and Federal regulations (42 CFR § 495.6), 2013.



Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)        24
                       APPENDIX C

                       The Extent to Which Eligible Professionals (EP) at Health Centers Met the Stage 1 Meaningful Use Objectives

                       Table C-1: Percentage of Health Centers by the Extent to Which Their EPs Met the Stage 1 Meaningful Use Core
                       Objectives for At Least 90 Days

                                                                                                     Core Objectives
                                                                                                                                             Implement      Provide
                  Use         Implement                               Maintain                                                    Report                                Provide      Exchange          Protect
                                            Maintain       Use                     Maintain       Record     Record    Record                  clinical    electronic
             computerized        drug                                  active                                                     clinical                              clinical       clinical       electronic
                                            problem     electronic                medication       demo-       vital   smoking                decision      copy of
             provider order   interaction                            medication                                                   quality                               summ-       information         health
                                            lists      prescribing                allergy lists   graphics    signs     status                support        health
                 entry          checks                                  lists                                                    measures                                aries     electronically*   information
                                                                                                                                                 rule     information

                                                                                       Percentage of Health Centers (N=233)**
All EPs
met
                 52%            60%          53%         47%           58%           54%           72%       61%        37%       28%          37%          25%          21%           37%             35%

Most EPs
met
                 28%            23%          31%         31%           30%           32%           18%       29%        41%       19%          24%          14%          24%           N/A             18%

Some EPs
met
                  9%             8%           7%          9%            6%            7%            4%        4%        12%       11%          12%          10%          23%           N/A                8%

Few EPs
met
                  3%             3%           3%          3%            2%            2%            1%        2%        3%         3%           4%           9%          14%           N/A                5%

No EPs
met
                  5%             5%           4%          6%            3%            3%            3%        3%        5%        26%          12%          23%          15%           55%             23%

Don’t
know
                  1%             2%           3%          3%            2%            2%            2%        2%        2%        14%          11%           9%          3%             8%             12%

   * Yes/no-only objective that can be attested to at the health center level versus the EP level.

   ** Some column percentages do not total 100 percent because of rounding and/or because health centers claimed an exclusion to an objective. An exclusion may be claimed if the meaningful use 

   objective is not applicable to the EP. 

   Source: OIG analysis of survey responses, 2012. 





   Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)                                                                                         25
                  Table C-2: Percentage of Health Centers by the Extent to Which Their EPs Met the Stage 1 Meaningful Use Menu
                  Objectives for At Least 90 Days
                                                                                                      Menu Objectives
                                                                                               Provide       Provide                                           Submit        Submit
                                       Implement                                                                                              Provide
                                                     Incorporate     Generate      Send        patients      patient-        Perform                         electronic     electronic
                                           drug                                                                                            transition of
                                                      clinical lab    patient     patient        with        specific      medication                          data to      syndromic
                                        formulary                                                                                              care
                                                     test results      lists    reminders     electronic    education     reconciliation                   immunization    surveillance
                                         checks                                                                                             summaries
                                                                                               access       resources                                        registries*      data*

                                                                                         Percentage of Health Centers (N=233)**

                    All EPs met           45%           61%           65%          16%           9%           31%             31%             21%             33%             10%

                    Most EPs met          16%           15%           12%          18%           6%           27%             27%             26%              N/A            N/A

                    Some EPs met          6%             7%            9%          19%           8%           21%             14%             17%              N/A            N/A

                    Few EPs met           5%             2%            4%          13%           6%            7%              6%             10%              N/A            N/A

                    No EPs met            17%           12%            7%          26%          67%           10%             14%             16%             58%             75%

                    Don’t know            9%             3%            3%          6%            4%            3%              7%              9%              8%             15%


                  * Yes/no-only objectives that can be attested to at the health center level versus the EP level.

                  ** Some column percentages do not total 100 because of rounding and/or because health centers claimed an exclusion to a objective. An exclusion may be claimed if the 

                  meaningful use objective is not applicable to the EP. 

                  Source: OIG analysis of survey responses, 2012.





Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)                                                                                   26
                  APPENDIX D
                  Agency Comments




                                                                                                      Health Resources and Services
                                DEPARTMENT OF HEALTH &. HUMAN SERVICES                                Administration


                                                                                                       Rockville MD 20857




                              TO:          Deputy Inspector General
                                           Inspector General, HHS OIG

                              FROM:        Administrator, Health Resources and Services Administration

                              SUBJECT:     HRSA's comments on Progress In Electronic Health Record Imp/emenation
                                           through HRSA Grants to Health Center Controlled Networks, (OEI-09-11­
                                           00830)

                             Thank you for the opportunity to review and provide comments on OIG's report. Attached
                             please find HRSA's comments.

                             If you have any questions, please contact Rebeca Sanchez-Barrett in HRSA's Office of Planning,
                             Analysis and Evaluation at (301) 443-0324.



                                                                               /S/
                                                                        Mary K. Wakefield, Ph.D., R.N.


                             Attachments




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)                         27
Agency Comments Continued




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   28 

Agency Comments Continued




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   29 

                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Timothy Brady, Regional
                  Inspector General for Evaluation and Inspections in the San Francisco
                  regional office, and Michael Henry, Deputy Regional Inspector General.
                  China Tantameng served as the team leader for this study, and
                  Tiffany Stanley served as the lead analyst. Other Office of Evaluation and
                  Inspections staff from the San Francisco regional office who conducted
                  the study include Linda Min. Central office staff who provided support
                  include Clarence Arnold, Heather Barton, Kevin Manley, Christine Moritz,
                  and Sherri Weinstein.




Progress in EHR Implementation Through HRSA Grants to Health Center Controlled Networks (OEI-09-11-00380)   30
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
